WAIVER

SUPREME COURT OF THE UNITED STATES

No. bt-210

 

 

jvisconsin | Mar D. Jensen

   

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I Tonly. represent some respondents, Tam » filing th this waiver on behalf of the following respondent(s):

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’y Office, 1 First Strept, NE, Washington, D.C. 20543).

     
 
 
 

Signature: [ y
Date: lor 3/: 20

 

(Type or print) Name landrea T Taylor Cornwall,
© wr. © Ms. O Mrs, ON Miss

Firm \Wisconsin State Public Defender

Address (735 North Water Street, Suite 912 -

 

   

City & State (nite kee, Wi

 

 

Phone lata. 227- 4805 ‘| Email

 

lcomwalla@opd. Wi gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

IScott Rosenow, Assistant Attorney General, Wisconsin Dept. of Justice = |
ce:

 
